<html>
<title> - THE SOUTH PACIFIC TUNA TREATY: NEXT STEPS FOR RENEWAL</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                     THE SOUTH PACIFIC TUNA TREATY:
                         NEXT STEPS FOR RENEWAL

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON ASIA, THE PACIFIC AND
                         THE GLOBAL ENVIRONMENT

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 2, 2009

                               __________

                           Serial No. 111-38

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______

                  U.S. GOVERNMENT PRINTING OFFICE
48-442                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b6d1c6d9f6d5c3c5c2ded3dac698d5d9db98">[email&#160;protected]</a>  


                      COMMITTEE ON FOREIGN AFFAIRS

                 HOWARD L. BERMAN, California, Chairman
GARY L. ACKERMAN, New York           ILEANA ROS-LEHTINEN, Florida
ENI F.H. FALEOMAVAEGA, American      CHRISTOPHER H. SMITH, New Jersey
    Samoa                            DAN BURTON, Indiana
DONALD M. PAYNE, New Jersey          ELTON GALLEGLY, California
BRAD SHERMAN, California             DANA ROHRABACHER, California
ROBERT WEXLER, Florida               DONALD A. MANZULLO, Illinois
ELIOT L. ENGEL, New York             EDWARD R. ROYCE, California
BILL DELAHUNT, Massachusetts         RON PAUL, Texas
GREGORY W. MEEKS, New York           JEFF FLAKE, Arizona
DIANE E. WATSON, California          MIKE PENCE, Indiana
RUSS CARNAHAN, Missouri              JOE WILSON, South Carolina
ALBIO SIRES, New Jersey              JOHN BOOZMAN, Arkansas
GERALD E. CONNOLLY, Virginia         J. GRESHAM BARRETT, South Carolina
MICHAEL E. McMAHON, New York         CONNIE MACK, Florida
JOHN S. TANNER, Tennessee            JEFF FORTENBERRY, Nebraska
GENE GREEN, Texas                    MICHAEL T. McCAUL, Texas
LYNN WOOLSEY, California<greek-l>As  TED POE, Texas
    of 3/12/09 deg.                  BOB INGLIS, South Carolina
SHEILA JACKSON LEE, Texas            GUS BILIRAKIS, Florida
BARBARA LEE, California
SHELLEY BERKLEY, Nevada
JOSEPH CROWLEY, New York
MIKE ROSS, Arkansas
BRAD MILLER, North Carolina
DAVID SCOTT, Georgia
JIM COSTA, California
KEITH ELLISON, Minnesota
GABRIELLE GIFFORDS, Arizona
RON KLEIN, Florida
                   Richard J. Kessler, Staff Director
                Yleem Poblete, Republican Staff Director
                                 ------                                

      Subcommittee on Asia, the Pacific and the Global Environment

            ENI F. H. FALEOMAVAEGA, American Samoa, Chairman
GARY L. ACKERMAN, New York           DONALD A. MANZULLO, Illinois
DIANE E. WATSON, California          BOB INGLIS, South Carolina
MIKE ROSS, Arkansas                  DANA ROHRABACHER, California
BRAD SHERMAN, California             EDWARD R. ROYCE, California
ELIOT L. ENGEL, New York             JEFF FLAKE, Arizona
GREGORY W. MEEKS, New York
               Lisa Williams, Subcommittee Staff Director
         David Richmond, Subcommittee Professional Staff Member
             Nien Su, Republican Professional Staff Member
                       Vili Lei, Staff Associate


                            C O N T E N T S

                              ----------                              
                                                                   Page

                                WITNESS

Mr. William Gibbons-Fly, Director, Office of Marine Conservation, 
  Bureau of Oceans and International Environmental and Scientific 
  Affairs, U.S. Department of State..............................     6

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Eni F.H. Faleomavaega, a Representative in Congress 
  from American Samoa, and Chairman, Subcommittee on Asia, the 
  Pacific and the Global Environment: Prepared statement.........     4
Mr. William Gibbons-Fly:
  Prepared statement.............................................     9
  Chart titled ``The United States Tuna Imports in Airtight 
    Containers for 2008''........................................    24

                                APPENDIX

Hearing notice...................................................    32
Hearing minutes..................................................    33
The Honorable Donald A. Manzullo, a Representative in Congress 
  from the State of Illinois: Prepared statement.................    34
The Honorable Diane E. Watson, a Representative in Congress from 
  the State of California: Prepared statement....................    35


         THE SOUTH PACIFIC TUNA TREATY: NEXT STEPS FOR RENEWAL

                              ----------                              


                        THURSDAY, APRIL 2, 2009

              House of Representatives,    
              Subcommittee on Asia, the Pacific    
                            and the Global Environment,    
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 o'clock 
a.m. in room 2200, Rayburn House Office Building, Hon. Eni F.H. 
Faleomavaega (chairman of the subcommittee) presiding.
    Mr. Faleomavaega. The hearing of Foreign Affairs, 
Subcommittee on Asia, the Pacific<greek-l>, deg. and the Global 
Environment, will now come to order.
    I will first make my opening statement. As you know, we 
have members coming in and out. This is how the system 
operates. And so we will give each member an opportunity for 
opening statements as well if they can make it to the hearing. 
The hearing this morning encompasses the current status of the 
South Pacific Tuna Treaty, and the question is, where are we 
now with that treaty and the future of the treaty?
    In 1988, the United States and 16 Pacific Island nations 
ratified and entered into the Multilateral Treaty on Fisheries 
between the governments of certain Pacific Island nations and 
the Government of the United States--often referred to as the 
South Pacific Tuna Treaty. Under the treaty, the United States 
tuna industry pays for access to certain areas of the Western 
and Central Pacific, including the exclusive economic zones of 
these Pacific Island nations party to the treaty. The U.S. 
Government also provides about $18 million annually to the 
Pacific Island parties through the State Department's Bureau of 
Oceans and International Environment and Scientific Affairs.
    The treaty is important to the U.S. tuna industry and, of 
course, especially to my own district as its private sector 
economy is more than 80 percent dependent, directly or 
indirectly, on the industry. It is very, very important. It not 
only has ramifications for my own district but the entire tuna 
industry as well.
    The treaty is also important to the Pacific Island nations. 
Papua New Guinea, the Federated States of Micronesia, the 
Solomon Islands and Kiribati receive the greatest share of the 
treaty funds.
    But, as the Congressional Research Service has noted, and I 
quote,

        ``The influence of the South Pacific Tuna Treaty in the 
        region may decline in the future as competition from 
        other fishing nations in the region grows, and at this 
        time it is not clear how this potential trend may 
        affect the negotiations for the renewal of the South 
        Pacific Tuna Treaty or efforts by parties to the treaty 
        to address issues of overcapacity.''

    Also, adopted in the year 2000 and entered into force 5 
years ago, a related agreement called the Western and Central 
Pacific Fisheries Convention established a commission to 
conserve and manage tuna and other highly migratory fish stocks 
in the region. According to CRS,

        ``Over 30 countries, territories and other entities 
        participate in this organization. These include those 
        with major tuna fishing fleets, such as the United 
        States, Japan, Korea, China, Taiwan and the 
        Philippines.''

With the rising influence of other national fleets in the 
Western and Central Pacific this may raise the profile of this 
commission as the main system for monitoring and controlling 
tuna fishing in the region.
    How these factors will impact the South Pacific Tuna Treaty 
remains to be seen. For now, given the treaty's importance to 
the United States tuna industry and the Pacific Island parties, 
the subcommittee has invited Mr. William Gibbons-Fly from the 
U.S. Department of State to testify before us about what steps 
the U.S. should take for renewal, since the treaty expires in 
the year 2013.
    Since the 2002 extension of the treaty provided licenses 
for up to 40 U.S. purse seiners--with an option for five 
additional licenses reserved for joint venture arrangements--to 
fish for tuna in the EEZs of the Pacific Island nations, what 
does the United States intend to do to make sure these licenses 
are extended?
    Secondly, are the Pacific Island parties supportive of this 
renewal effort?
    Third, are the United States and Pacific Island parties 
supportive of general provisions regarding fishing capacity, 
revenue sharing and linkages between the treaty and the Western 
and Central Pacific Convention?
    Fourth, what is the current U.S. thinking regarding the 
amendments to the treaty and its annexes which were included in 
the 2002 extension, such as revised procedures for amending the 
annexes, a revised program fee formula, updating the methods 
available for reporting, and provisions on the use of a vessel 
monitoring system, or VMS?
    Another question is what is the possibility of making the 
treaty open to U.S. long-liners from the United States 
territories such as American Samoa, as well as from the state 
of Hawaii? What are the areas of concern, if any, if we so move 
forward?
    These are the questions, and of course I note that my good 
ranking member and colleague, the gentleman from Illinois, is 
not here with us. I am sure at some point he will join us later 
at the hearing.
    So at this time I want to introduce our witness now before 
us. Mr. William Gibbons-Fly is director of the Office of Marine 
Conservation at the Bureau of Oceans, Environment and Sciences 
of the U.S. Department of State.
    Mr. Gibbons-Fly has nearly 25 years of direct involvement 
in the development and implementation of international 
environmental and oceans policy. He is one of the Department of 
State's most senior negotiators on oceans and fisheries issues. 
He assumed his current positions after 4 years as deputy 
director of the office he now heads.
    Previous to that, for 4 years at the U.S. Embassy in Mexico 
City, he served as deputy counselor for the environment, 
science and technology, covering oceans and natural resources 
issues, including fisheries, marine science, wildlife, forests, 
national parks and protected areas, among others.
    Mr. Gibbons-Fly holds a master's degree in international 
affairs from George Washington University and a bachelor's with 
honors from the University of California at Santa Barbara. He's 
quite a senior career service gentleman, I must say.
    He enjoys playing baseball. I haven't tried baseball as 
often as I could, sir, but I am certainly hopeful that we could 
get more baseball players out there. We have enough football 
players and sumo wrestlers. We need something else that we do.
    So I ask my good friend, my colleague and senior ranking 
member of our subcommittee, Mr. Manzullo, if he has any opening 
statement?
    [The prepared statement of Mr. Faleomavaega 
follows:]<greek-l>Chairman Faleomavaega deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Manzullo. I will yield.
    Mr. Faleomavaega. All right. We will now turn the time over 
to our witness, Mr. Gibbons-Fly.

   STATEMENT OF MR. WILLIAM GIBBONS-FLY, DIRECTOR, OFFICE OF 
    MARINE CONSERVATION, BUREAU OF OCEANS AND INTERNATIONAL 
 ENVIRONMENTAL AND SCIENTIFIC AFFAIRS, U.S. DEPARTMENT OF STATE

    Mr. Gibbons-Fly. Thank you, Mr. Chairman, and thank you 
very much for the opportunity to be here today, and thank you 
for those kind words. These days my baseball is pretty much 
limited to watching my 14-year-old son, but that is just as 
much fun as getting out there yourself at times.
    Mr. Chairman, I have submitted a full written statement for 
the record, and with your permission I will try to summarize 
those remarks. I request that my full statement be included in 
the record.
    Mr. Faleomavaega. Without objection.
    Mr. Gibbons-Fly. I beg your indulgence, Mr. Chairman. My 
written statement may go over a 5-minute limit, but I will do 
my best to keep myself within that time period.
    Once again, thank you for the opportunity to be here today 
to discuss the agreement that we commonly refer to as the South 
Pacific Tuna Treaty. The treaty, which entered into force in 
1988, continues to be a cornerstone of the economic and 
political relationship between the United States and the 16 
Pacific Island states that are party to it.
    My written testimony contains significant background on the 
treaty and the benefits to the United States, to the Pacific 
Island parties and for the conservation and management of the 
tuna resources of the Pacific as a whole. In summarizing that 
background, I would like to mention very briefly a few key 
points.
    First, I would like to recognize right at the outset the 
very strong support that we get from the National Oceanic and 
Atmospheric Administration in implementing this treaty.
    In particular, the NOAA Fisheries Pacific Island Regional 
Office in Honolulu and their field station in Pago Pago are 
responsible for conducting the day-to-day operations of the 
treaty on behalf of the U.S. Government, and the implementation 
of this treaty would simply not be possible without the very 
strong support we get from the entire crew out there.
    Second, I would like to highlight the cooperation and the 
leadership that has been shown by the U.S. tuna purse seine 
industry and the U.S. fishing industry in general.
    My written testimony again highlights in detail how the 
United States industry has set the standard for responsible and 
sustainable tuna fishing operations in the Pacific Ocean, 
including with respect to observer coverage, satellite-based 
vessel monitoring systems, detailed and extensive region-wide 
reporting requirements and a record of compliance with agreed 
measures.
    In many cases the leadership shown by the U.S. fleet has 
resulted in new international standards that now apply broadly 
across the region. In other cases we must continue working to 
level the playing field to ensure that all fleets operate 
according to the same high standards of transparency and 
accountability as the U.S. fleet.
    The treaty has provided considerable benefits both to the 
United States and to the Pacific Island parties. The landed 
value of the catch in 2008 has been estimated at $250 million, 
and the total annual contribution to the U.S. economy through 
the processing and distribution chain, including through the 
canneries in your district, Mr. Chairman, may be as much as 
$400-$500 million a year.
    Under a related economic assistance agreement, as you noted 
in your opening statement, the United States provides $18 
million annually in economic support funds to the Pacific 
Island parties. The U.S. industry will contribute this year an 
additional $5.7 million.
    These funds make significant contributions to the economic 
development and well-being of the Pacific Island parties, many 
of which have few other natural resources or reliable sources 
of income beyond those received from fisheries in waters under 
their jurisdiction. Beyond the financial considerations, Mr. 
Chairman, the treaty also provides the basis for cooperation 
between the United States and the Pacific Island parties to 
promote the long-term sustainability of the fishery resources 
in the Pacific Ocean.
    For all of these reasons, the treaty has been widely 
recognized and praised by the international community. The 
staff of the Forum Fisheries Agency based in Honiara, Solomon 
Islands, which administers the treaty on behalf of the Pacific 
Island parties, has praised the U.S. fleet as a model fleet in 
terms of its record of reporting and compliance with regional 
standards.
    Nongovernmental conservation organizations such as the 
World Wildlife Fund have recognized the treaty as a model for 
fisheries access agreements negotiated between coastal states, 
in particular developing coastal states, and distant water 
fishing states. In other words, Mr. Chairman, the treaty 
represents an unqualified success story.
    Finally, Mr. Chairman, let me say a little bit about the 
future of the treaty and related issues. The current extension 
of the treaty, as you noted, continues through June 14, 2013. 
If the treaty is to continue beyond that point, we will need to 
reach agreement with the Pacific Island states on the terms and 
conditions for extending the agreement.
    At our most recent treaty consultation, which took place 
just last month in Koror, Palau, the parties to the treaty 
noted that we should begin our discussions to that end later 
this year. These discussions will not be easy, and the outcome 
is not certain. Conditions in the Western and Central Pacific 
have changed from when we negotiated the previous extension in 
2001 and 2002.
    The interest of other fleets for fishing licenses in waters 
under the jurisdiction of the Pacific Island states has 
increased dramatically. At the same time, a subgroup of eight 
countries within the FFA known as the Parties to the Nauru 
Agreement or the PNA are implementing a new means of allocating 
fishing effort in waters under their jurisdiction, which they 
refer to as the Vessel Day Scheme.
    The PNA wants to see the U.S. treaty vessels integrated 
into this Vessel Day Scheme. We have a number of questions 
regarding the operational details of this scheme, and we have 
initiated a dialogue with the PNA members and the FFA staff to 
better understand this system.
    Additionally, Mr. Chairman, the Pacific Island parties have 
their own development aspirations with respect to developing 
locally based purse seine fleets that allow them to gain more 
direct economic benefits from the fisheries in their waters.
    For these and other reasons, it is possible that not all 
the current parties to the treaty will see continuing as a 
party as in their best interest. Some may decide they are 
better off working to develop their domestic industries or to 
negotiate additional bilateral arrangements with other 
countries.
    Having said all that, Mr. Chairman, and despite the 
complexity of the issues, it is our strong hope that the 20-
plus year relationship established under the treaty and that 
has worked so well for both sides will continue to be of value 
to the Pacific Island parties in the same way that it is to the 
United States.
    Working with them, with you and the Congress and with the 
United States fishing industry, we will seek to demonstrate 
that a vibrant treaty can be a strong complementary element to 
the Pacific Island parties' own development aspirations.
    Thank you very much. That concludes my oral statement, and 
I am happy to respond to any questions that any of you may 
have.
    [The prepared statement of Mr. Gibbons-Fly 
follows:]<greek-l>William Gibbons-Fly deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Faleomavaega. I just want to say that we are very happy 
that we are also joined with us on the dais by the gentleman, 
my colleague from Arizona, Mr. Jeff Flake, who is a member of 
our subcommittee.
    I will begin the list of questions. I am sure, Don, you 
will join me later.
    But at this point I want unanimous consent, Mr. Gibbons-
Fly, if you could submit for the record a copy of the South 
Pacific Tuna Treaty itself; also a copy of the Treaty 
Convention dealing with the commission that is now being set up 
in Pohnpei. I would like to submit that for the record, and 
also a copy of the Law of the Sea Convention itself, which I 
will allude to later in my line of questions.
    [Note: The information referred to is not reprinted here 
but is available in committee records.]
    Mr. Faleomavaega. I believe the U.S. is the largest 
consumer country of tuna in the world. Am I correct on this?
    Mr. Gibbons-Fly. It is certainly one of the top three. The 
top three markets for tuna are generally considered to be the 
United States, Europe and Japan. There are others in this room 
who might know the exact order, but we are near the top, if not 
at the top.
    Mr. Faleomavaega. And one of the issues that I have always 
raised--I also serve as a member of the Fisheries Subcommittee 
on the Natural Resources Committee--is that I believe currently 
we have to import over $10 billion worth of fish from foreign 
countries because we don't produce enough of it domestically.
    Isn't that kind of weird, somewhat ironic, that we have to 
import fish, $9 billion that goes out that we have to purchase? 
Why can't we have a thriving fishing industry ourselves for our 
own consumer demand? I am very curious about this.
    You had mentioned earlier about this PNA system, the Vessel 
Day Scheme--whose bright idea was that?
    Mr. Gibbons-Fly. Well, it originated within I believe the 
staff of the Forum Fisheries Agency, and the intent, Mr. 
Chairman, among the Pacific Island states, they are looking 
through this and other means to maximize the revenues that they 
get from their tuna, the tuna that incurs in the waters under 
their jurisdiction.
    One of the criticisms that you often hear about the 
agreements that the Pacific Island states make with distant 
water fishing states, or at least the Pacific Island states 
will argue that they are not getting a sufficient level of 
return on the fish. They want more direct involvement and would 
like to increase the revenues that they gain from the resources 
that they consider to be their fish in the waters under their 
jurisdiction.
    The Vessel Day Scheme is an effort to do that by creating a 
cap on the number of fishing days that would be available and 
then having those vessels that want to fish in the Pacific to 
bid for that limited number of days with the idea that at some 
point there would be a maximum revenue that would accrue from 
the balance between the supply and demand of fishing days 
available.
    As I have said, we have a lot of questions about that, and 
we are still trying to seek answers to a number of our 
questions and so there are a lot of questions that even we are 
not able to answer at this time about that scheme.
    Mr. Faleomavaega. And one of the questions that comes to 
mind: What if you are given 10 days to fish and you don't catch 
anything? Do you still have to pay them?
    Mr. Gibbons-Fly. You pay for the days, as I understand it, 
but this represents a shift in the way that the Pacific Island 
states have managed capacity in the region. The previous 
mechanism that they had for managing fishing effort in the 
region was a cap on the number of vessels that could fish.
    The Parties to the Nauru Agreement, the PNA countries, had 
a cap of 205 purse seine vessels that were allowed to fish. 
That is now being replaced with this Vessel Day Scheme, but, as 
I understand it, they are removing the cap so at some point 
there is no limit on the number of purse seine vessels that 
might be available to bid on those days.
    As you can imagine, Mr. Chairman, we have some concerns 
about that, and a number of others have concerns about that, 
because if you have too many vessels purchasing those days not 
all those vessels may be able to get a sufficient number of 
days for them to operate profitably.
    Mr. Faleomavaega. And not only that----
    Mr. Gibbons-Fly. And then where do those vessels go and 
what do they do? That is a significant concern. And what about 
the investment of those who have been in the fishery, like the 
U.S. industry, for 20-plus years that are now bidding against 
an unlimited pool of bidders?
    Those are the kinds of questions that we are seeking 
answers to as we go into the negotiations on the extension.
    Mr. Faleomavaega. If you were to make a comparison of our 
regional tuna fishing treaty with the 16 island countries as 
far as compliance with dolphin-safe standards, how do we 
compare in terms of the standards that we put on our fishing 
fleet to other nations?
    Here is my problem. We currently have a regional fishing 
treaty in place with the 16 island countries, and then they 
turn around and conduct bilateral fishing agreements with other 
countries that may not necessarily comply with the standards, 
the high standards, that our fishing fleet has to abide by.
    It also destroys the whole idea of conservation, it seems 
to me, because where does conservation come in? If they don't 
put on a cap, are you suggesting here that if they are allowing 
over 200 purse seiners to fish in the waters that they will be 
overfished in a very short time?
    And it somewhat contradicts the whole concept of 
conservation as outlined under the provisions of this 
convention that we just have set up this monitoring committee 
now based out of Pohnpei. Do you care to respond to that?
    Mr. Gibbons-Fly. Yes. First, in response to your first 
question of where the U.S. ranks in terms of compliance with 
agreed measures, right at the very top.
    As I mentioned in my statement, both my oral and written 
statement, you don't have to take my word for that. The Forum 
Fisheries Agency secretariat has repeatedly acknowledged to us 
that the U.S. fleet sets the standard for compliance with 
agreed measures for use of the vessel monitoring system.
    The U.S. fleet was the first fleet that agreed to the 
implementation of a vessel monitoring system in the Pacific at 
a time when all the other fleets fishing out there resisted 
that, and it was only because the U.S. fleet took on that 
obligation that the Pacific Island states were then able to use 
that as a basis to insist that other countries did the same.
    And that same example can be repeated through the level of 
observer coverage, through reporting requirements, through a 
whole range of other requirements. The U.S. fleet sets the 
standard and will continue to set the standard.
    We are working now to level the playing field, as I 
mentioned, and trying to get the Pacific Island states in their 
negotiations of whatever other agreements they might negotiate 
to hold other fleets to the same standard as the U.S. fleet.
    We now have a second mechanism to do that, and that is 
through the Western and Central Pacific Fisheries Commission, 
which is the region-wide body, as you mentioned, responsible 
for the conservation and management of tunas in the region. We 
have been working with the Pacific Island states in that forum 
to do just that.
    For example, the Parties to the Nauru Agreement through a 
separate set of standards----
    Mr. Faleomavaega. I am sorry. Which countries are parties 
to the Nauru Agreement?
    Mr. Gibbons-Fly. It is three compact states, Palau, 
Micronesia and the Marshall Islands, as well as Papua New 
Guinea, Kiribati, Nauru, Solomon Islands and Tuvalu. Those are 
the states that straddle the equator.
    Most purse seine fishing in the region takes place between 
20 degrees north and 20 degrees south. Those are the states 
located in that region, and the majority of fish caught by 
purse seines in the Pacific, the Central and Western Pacific, 
is caught in waters under the jurisdiction of those states so 
they work together to try to set regional standards.
    They last year adopted a set of standards in what they are 
calling the Third Implementing Arrangement, which is an 
implementing arrangement to a previous agreement to set these 
kinds of standards, and they set standards such as 100 percent 
observer coverage, 100 percent VMS coverage, closure of certain 
areas to fishing, et cetera.
    In the past what we have seen when these standards have 
been set, they are not always effectively and faithfully 
implemented in the negotiation of the bilateral agreements, and 
there has been some scattered or uneven implementation of these 
standards among the states.
    So we worked with the Pacific Island states at the most 
recent meeting of the Western and Central Pacific Fisheries 
Commission to get these same measures adopted as measures under 
the WCPFC, which means that now it is not up to the states to 
negotiate these as part of their bilateral agreements. These 
standards will now apply under the WCPFC to all the fleets 
operating in the region.
    So that was a successful effort to try to level the playing 
field to some extent on some issues, but there are other areas 
where we still have more work to do. There are still cases 
where the U.S. fleet is operating at a higher standard than 
some of these other states, and we will continue to work both 
through WCPFC and with the island states to try to get 
everybody operating at the same----
    Mr. Faleomavaega. I think I have exhausted my 5 minutes. 
Mr. Manzullo? I will wait for the second round.
    Mr. Manzullo. Thank you. Now, as I understand the purpose 
of the tuna treaty is to regulate the amount of fish to be 
harvested. Would that be correct?
    Mr. Gibbons-Fly. Well, the tuna treaty itself is primarily 
an agreement by which U.S. vessels gain access. It is what is 
known as a fishery access agreement, and it sets the terms and 
conditions for access by vessels flying the U.S. flag to the 
waters under the jurisdiction of the parties to the treaty.
    Now, a quid pro quo for that is that those vessels abide by 
a certain set of standards, but historically through the life 
of the treaty there has not been really a need over the last 20 
years up until the last 3, 4, 5 years to regulate the amount of 
tuna being caught because none of the stocks of tuna in the 
Pacific were considered to be fished at a level that was not 
sustainable.
    That has now changed, and I will get back to that in a 
minute, but historically it has been an access agreement rather 
than a vehicle through which catches were capped. It is the 
WCPFC, the much broader, multilateral convention, that is the 
conservation and management arrangement where the measures are 
taken to limit the amount of fish that is being caught.
    And that is the agreement and the meeting that I referred 
to just recently where we were able to adopt a fairly strict 
set of standards; not as strict as anyone would have liked, but 
it was the first measure to get at regulation of catches of 
bigeye tuna in the Pacific Ocean and bigeye----
    Mr. Manzullo. That is not among all the members of the 
South Pacific Tuna Treaty, is it?
    Mr. Gibbons-Fly. All the members of the South Pacific Tuna 
Treaty are members of the Western and Central Pacific Fisheries 
Commission.
    Mr. Manzullo. Okay.
    Mr. Gibbons-Fly. As are a number of other countries, 
including all the other distant water fishing states.
    Mr. Faleomavaega. Will the gentleman yield?
    Mr. Manzullo. Of course.
    Mr. Faleomavaega. I think maybe just a little background a 
little further before that.
    What happened was that our fishing fleet went all over the 
Pacific fishing for tuna, declaring that since tuna is a highly 
migratory fish, there are no restrictions in terms of the EEZs. 
So we kept poaching into the EEZ zones of these other 
countries, especially Latin America, and our boats ended up 
getting confiscated. They got in some very serious problems.
    So eventually they left the Eastern Pacific and decided to 
come to the Western Pacific to do their fishing.
    Mr. Manzullo. Do you mean the boats or the tuna?
    Mr. Faleomavaega. The boats. Our boats. Our tuna boats went 
down there, and one of them got seized in the Solomon Islands 
and all hell broke loose.
    George Shultz and our whole government got involved. It 
caused an international incident because our boat owners said 
that because tuna is a highly migratory fish there should be no 
restrictions as to how far we can go and catch the fish.
    Well, that didn't work very well, and as a result of that, 
Secretary of State Shultz, and I think at that time also Mr. 
Negroponte, initiated this idea with my good friend, Dave 
Birney, who now has passed, to establish a regional fishing 
treaty with these island nations. In that way we would have 
better access going into the EEZ zones to conduct fishing 
operations. That is how the fishing treaty came about.
    Mr. Manzullo. I really know a lot more about cattle than I 
do about fish, but I am intrigued over the fact that the last 3 
or 4 years there haven't been enough tuna or there haven't been 
as many tuna as there were prior to this. Is that correct? Did 
I say that correctly?
    Mr. Gibbons-Fly. Well, you know, it is a very broad 
question. You did say that correctly, but it varies from region 
to region, and the Pacific, especially the Western Pacific, the 
Western and Central Pacific, is the area of the world where the 
tuna stocks are considered to be in the best shape still.
    There are three primary commercial species that are 
harvested by purse seines, and I won't bore you with too many 
of the details, but skipjack, yellowfin and bigeye tuna. The 
primary targets are the yellowfin and the skipjack.
    The bigeye tuna is caught in association with the other 
species, and it is the bigeye tuna that is the one that is 
currently considered to be at a level that is in technical 
terms overfished or at very near an overfished state.
    Mr. Manzullo. Do you have a theory on that as our chairman 
as to----
    Mr. Gibbons-Fly. Well, the theory is----
    Mr. Manzullo. This is a red flag that there could be some 
problems.
    Mr. Gibbons-Fly. If it is a red flag, yes, and it is more 
than a theory. The simply fact is they are catching tuna faster 
than it can replace itself.
    The bigeye tuna is caught both by long-line fisheries and 
by purse seine fisheries, and the purse seine fisheries it is 
the smaller bigeye that is caught. It is not a target of the 
fishery, so there are efforts underway to try to find ways to 
catch the target species of yellowfin and skipjack without 
catching or minimizing the catch of the juvenile bigeye that is 
usually found at a deeper depth, than the other two target 
species.
    It is a very complex technical question, but when good 
minds have been put on these efforts in the past they have been 
able to come up with solutions, and there may be a technical 
solution. In the meantime, the solution is to reduce the level 
of fishing effort so that there are fewer vessels fishing 
during parts of the year.
    Mr. Manzullo. Can countries that are not members of the 
South Pacific Tuna Treaty such as South Korea and China get 
access to that area?
    Mr. Gibbons-Fly. Yes. Both those countries, as well as 
Japan, Taiwan and the EU, are all parties to the Western and 
Central Pacific Fisheries Commission, and each of them has 
negotiated agreements, separate bilateral agreements, with 
various Pacific Island states for access to fish in the waters 
under their jurisdiction.
    Mr. Manzullo. Is that working, or is that causing some 
angst?
    Mr. Gibbons-Fly. Well, right now I think the general 
perception is that the level of fishing effort as a result of 
the cumulative total of all these agreements is probably higher 
than it needs to be or should be.
    Mr. Manzullo. Mr. Chairman, do you want to comment on that? 
I know this is an intimate area that is being overfished.
    Mr. Faleomavaega. If the gentleman will yield? That is 
exactly the trend, and this is the direction that we are headed 
for.
    You know, the Atlantic is already overfished, and there is 
no question in my opinion that the time is going to come when 
there will be overfishing even in the Pacific for tuna. The 
demand obviously is going to be a lot greater than the supply.
    This is causing a lot of concern about conservation efforts 
being made seriously. As you know, the swordfish in the North 
Atlantic were overfished. We have some 100 fishing vessels from 
the New England states coming to Hawaii to do fishing there 
simply because the swordfish was overfished.
    That is exactly what we are headed for if we don't take 
conservation measures. This is a concern that is very much in 
the minds of these countries. The problem is that because these 
island countries are so economically strapped, desperate if you 
want to put it in those terms, they end up really for a 
pittance, giving away these business licenses.
    And these fishing vessels that come from foreign countries 
that don't comply with the conservation standards that we have 
applied in our regional fishing treaty, this is where the 
problem is caused. I believe we are going to have some serious 
situations in dealing with the fishing efforts.
    Mr. Gibbons-Fly. I might add one thing, and that is that I 
started to mention the measure that was adopted in December at 
the WCPFC meeting which took place in Busan, Korea. One of the 
elements of that measure was precisely to get at reducing the 
catches of juvenile bigeye tuna.
    Much of the catch of the juvenile bigeye tuna is caught 
with vessels fishing in association with what are called fish 
aggregating devices (FAD). These are floating rafts that are 
put in the water that attract fish around them, and then the 
vessel will set its net around the fish that have schooled 
around that FAD.
    In association with that, the catches of juvenile bigeye 
are higher than they are when fishing on what are called free 
swimming schools, which are schools that are just swimming in 
the ocean not associated with these floating devices.
    One of the elements of the measure that was adopted by the 
Western and Central Pacific Fisheries Commission was to close 
this year the fishery on floating objects for a period of 60 
days in the area this fishing takes place. Next year that will 
expand to 90 days.
    So by reducing the level of fishing effort on these 
floating devices there is an expectation that if these measures 
are faithfully implemented that that will result in some fairly 
significant reduction in bigeye tuna. Perhaps not up to the 
level yet that the scientists are telling us that we need, but 
at least it is a first start and first step.
    One of the most significant accomplishments of that meeting 
was that they adopted any measure at all. A number of people 
are often frustrated with the progress made in RFMOs, regional 
fisheries management organizations, but to get 26 countries 
around that table to agree to a set of measures that actually 
did make some progress in addressing the overfishing of bigeye 
was a significant accomplishment in my view.
    Although a number of people, and they are absolutely 
correct in saying the Commission needs to do more. It needs to 
go farther. This wasn't enough, but it was a good first step 
and a good accomplishment to get this organization moving in 
the right direction.
    Mr. Faleomavaega. The gentleman from Arizona?
    Mr. Flake. Thank you, Mr. Chairman.
    Mr. Gibbons-Fly, we have the tuna processing facility in 
American Samoa, which I have had the opportunity to visit a 
couple of times. Where else in the Central or Western Pacific 
are there processing facilities at present?
    Mr. Gibbons-Fly. There are different kinds of processing 
facilities in different parts of the region. For tuna, for the 
tuna that is being caught by purse seine vessels, there are two 
main ways to process the fish in the region.
    One is through the full plant where the fish comes off the 
vessel and ends up right in the can. The only other place that 
I am aware of that there are canneries really in the region are 
in Papua New Guinea.
    There have been efforts to establish canneries in other of 
the Pacific Island states, but they have not been successful in 
the long term for a variety of reasons, including lack of fresh 
water and in some cases political stability or instability.
    In some places like Marshall Islands and Fiji there is an 
intermediary step, which is called a loining plant, where the 
loins, which are really the meat that ends up in the can--it is 
the most labor intensive part of the process--are taken out of 
the tuna and then shipped to a canning facility.
    The major canning facilities where a lot of this fish goes 
is to Thailand, which is really the world's tuna canning 
center. A lot of it is transhipped out of various ports in the 
region to carrier vessels, which then go to Thailand. The 
Philippines also has a significant canning industry down in the 
Mindanao region, the General Santos region. Those are probably 
the biggest centers I would say.
    Mr. Flake. So in terms of distances that are traveled by 
these vessels, as long as they can upload to a loining 
facility, as you say, and tranship from there then there are 
really no restrictions. They can go a long way.
    It is not as if there has to be more canning facilities 
there for overfishing to really occur. Under the current 
infrastructure that we have, we can see significant 
overfishing. Is that what you are saying?
    Mr. Gibbons-Fly. If you are saying does the lack of 
canneries serve as a check on the possibility of overfishing in 
the region, no. That is not an obstacle or not a barrier.
    Mr. Flake. That was my question, yes.
    Mr. Gibbons-Fly. The level of fishing is not constrained 
simply because the canneries aren't in the region.
    Also, some of it actually comes east to canneries in 
Ecuador where there is a significant canning capacity as well.
    Mr. Flake. Thank you.
    Mr. Faleomavaega. Can you provide for the record the list 
of all the countries competing to export canned tuna to the 
United States? I think there is a list.
    Mr. Gibbons-Fly. I am sure we can find that list someplace, 
Mr. Chairman.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Faleomavaega. Just a couple more questions, Mr. 
Gibbons-Fly.
    One of the problems, and this is not just because of the 
presence of the tuna industry in my district, but looking at 
the broad, overall situation of the entire Pacific region, 
which I think impacts directly even our own economic interests 
in our country. The reason for raising this issue is the whole 
question of marine resources available to the Pacific region, 
of which we are part.
    I just wanted to raise the question if the State Department 
is preparing any plans to conduct some kind of a working 
partnership with these island countries to promote and to 
enhance their fishing industries, and also as a way to examine 
U.S. consumer demand to see what products or what marine 
resources they can develop that could be part of our economic 
partnership with these countries.
    Mr. Gibbons-Fly. Well, one of the elements of the treaty 
that is written into the treaty are provisions for what is 
called broader cooperation to do exactly that and to provide 
opportunities for enhanced economic cooperation to help develop 
some of the domestic fisheries.
    There have been some efforts to do that. Some U.S. 
investment has gone into trying to set up some of these loining 
plants in various places. Some of those have succeeded, and 
some of those have failed.
    The canning plant that is currently operating in a place 
called Wewak, Papua New Guinea, was an initiative that was 
originated by U.S. interests and U.S. capital, and it became so 
complicated politically and economically that they withdrew. 
Another set of investors came in, but the U.S. companies 
continued to provide the technology and the expertise to help 
get that plant up and running.
    Developing tuna industries in many of these countries is a 
very complicated task, and the island states want to explore 
more of these opportunities. We are certainly open to 
encouraging that, but at the end of the day those are all 
decisions that are taken primarily by private sector 
organizations based on a set of business criteria that they 
need to decide for themselves.
    The money that is set aside under the treaty, the $18 
million in economic support funds, is provided to the Pacific 
Island states for them to use in a manner they see fit, and 
there was an early time during the treaty where a portion of 
that money was set aside to fund fisheries development 
projects. We have encouraged the Pacific Island states to think 
about going back to that kind of model.
    We don't have additional resources above the $18 million to 
contribute from the government's side into those kinds of 
activities, but if they wanted to use some of that $18 million 
to foster some of these activities the government could provide 
value added in terms of technical expertise and scientific 
research.
    Up to this point, Mr. Chairman, as you noted, the 
countries, because of their----
    Mr. Faleomavaega. But this is the basis of what I have 
always said should be part of our foreign assistance program. 
Rather than just feeding the people, teaching them how to fish 
so they can eat forever according to the Chinese proverb.
    Mr. Gibbons-Fly. Right.
    Mr. Faleomavaega. Of course, I have always said this for 
years. The ocean is the farm for these island countries. If we 
give them the tools so they could better develop their own 
industries and the resources that they have access to, isn't 
that a better way to also offer some assistance in that regard?
    Eighteen million dollars. I mean, we spend almost $1 
billion in building our Embassy in Baghdad. I mean, I realize 
you can't comment about the question of foreign assistance, but 
it seems to me that this is certainly an area that we ought to 
pursue, or the State Department ought to pursue, to see that 
tools are provided so that these island countries could better 
work out these issues.
    As you know, the bottom line is that they just don't have 
the resources to develop a fishing industry. They have the 
fish, but then going about and catching it and setting up a 
long-line fleet and all of that is difficult. Do you think that 
somewhere our country could be of help to these countries?
    Mr. Gibbons-Fly. I don't see why not. I will take your 
comments, and we will take those under advisement and we will 
report back your interest in seeing us work in that direction.
    Mr. Faleomavaega. You know, I visited Taiwan. They have 
tanks about as big as this room for fish farming. They don't 
even go fishing. They just do the fish farming right there. 
They catch the fingerlings. In a matter of months it is out in 
the market all over Asia.
    These island countries, if there is any way that we could 
give them the proper technology. I would think that it would be 
probably best if we could just work it some way or somehow just 
to give these people the tools. They can become more self-
sufficient. That is really the bottom line.
    The $18 million is nice to give, but I think we should 
seriously consider other ways of giving the tools so that they 
could better improve this industry because, like you said, it 
is complicated and it is scattered all over in such a way that 
they are never really given an opportunity to really come out 
with a real serious effort.
    More marine biologists trained in our universities, giving 
them a better understanding on seamanship. I mean, it seems to 
me that we do have the technology and the resources. I go back 
to the Chinese proverb: Feed a man fish one day, he will 
survive, but if you teach him how to fish he will eat forever. 
I literally believe in that.
    Do you think that this is possible? It doesn't take $1 
billion to set up some kind of a training program so that these 
countries could be self-sufficient in that regard.
    Mr. Gibbons-Fly. Yes. I understand your concerns, Mr. 
Chairman. As I said, I will report them back and clearly 
reflect your interest in seeing us work in that direction. We 
will keep you posted.
    Mr. Faleomavaega. In comparison, we have got the Forum 
Fisheries Agency out of the Forum countries, and then we have 
the Pacific Community. It used to be the South Pacific 
Commission. They have their fisheries program. Now we have the 
Western Pacific Commission out of Pohnpei.
    You don't see any problems with these three organizations 
working? Are they working together? Are they somewhat 
overlapping in terms of what they are doing?
    Mr. Gibbons-Fly. They are working together, and one of our 
challenges and one of our goals is to make sure that they 
continue to work together and that the activities that are 
taking place in one organization or under one agreement are not 
in conflict with activities that are taking place in another.
    In fact, this has been a key subject of discussion. We meet 
each year with the parties to the treaty in an annual 
consultation which, as I mentioned, takes place in March, and 
we have added an item to the agenda that talks about 
coordination between operations under the treaty and the way in 
which we work together with the Pacific Island states and the 
Western and Central Pacific Fisheries Commission.
    Likewise, the Forum Fisheries Agency in Honiara serves as 
the mechanism for coordinating the position of the Pacific 
Island states not only with respect to discussions with us 
under the treaty, but also within their participation under the 
WCPFC.
    So there is a very conscious understanding of the need to 
ensure that all of these organizations are working together, 
not working at cross purposes, but there is a great deal of 
cross fertilization, and we need to continue to be vigilant in 
this regard, but up to this point there seems to be a synergy 
rather than discord in the way that these organizations are 
working together.
    Mr. Faleomavaega. I understand that there is a current 
effort by the administration to reevaluate some of these 
commissions that deal with tracking or monitoring the tuna 
situation. ICCAT I think is one organization out of California.
    How many other commissions are involved in doing this kind 
of work dealing with marine resources? Just tuna?
    Mr. Gibbons-Fly. Well, depending on how you count them, 
there are a very large number. Dealing with tuna, there are 
five principal organizations. The United States is a party to 
three of them.
    There is ICCAT in the Atlantic, there is the IATTC in the 
Eastern Pacific, the WCPFC in the Central and Western Pacific. 
Those are the three to which the United States is a party.
    And then in addition to that there is the Indian Ocean Tuna 
Commission, which manages tuna in that ocean, and then there is 
the Commission for the Conservation of Southern Bluefin Tuna, 
which manage the bluefin tuna resource in the Southern Ocean.
    And there are efforts underway to try to ensure that those 
five organizations are at least conscious of what the others 
are doing and if possible to try to harmonize some of the 
things that they are doing.
    The Japanese hosted a meeting of the five tuna RFMOs in 
Kobe, Japan, 2 years ago to try to get that effort underway. 
There is going to be another meeting along those lines in San 
Sebastian, Spain. But it is very complicated because each of 
these organizations has its own culture. It has its own 
parties. It has its own way of doing things.
    What works in one part of the world isn't always possible 
in the other or isn't agreeable to another set of parties 
operating in another part of the world, so trying to get them 
all on the same page and moving in the same direction is a 
challenge.
    But there are some things perhaps where we might have some 
success, and one of the areas is with respect to some of these 
trade tracking schemes because these different organizations 
are now trying to track the tuna that comes out of the areas 
where they exercise jurisdiction. Different organizations are 
adopting different schemes, and that gets very complicated if 
you are purchasing tuna from several different parts of the 
world.
    So some effort to try to harmonize these schemes we think 
is valuable, and then perhaps using that as a basis to see what 
other things can be done to get all these organizations working 
along the same lines.
    Mr. Faleomavaega. I am sure that you have opportunities in 
consulting with members of our tuna fishing fleet, and I was 
just wondering if there have been any concerns expressed to you 
about their capabilities and what they are doing right now as 
it relates to the provisions of the Tuna Treaty.
    Is there any area that you think there is something that 
maybe we should address or look at?
    Mr. Gibbons-Fly. Well, my understanding of where our 
industry is, is that they are very supportive of the treaty as 
currently formulated and would like to see it continue very 
much along the same lines.
    One of the things that we are wrestling with now is the 
fact that we understand that the rules of the game that are 
being set by the Pacific Island states are changing to this 
Vessel Day Scheme, and we are engaging in discussions to try to 
determine whether or not there are ways to make the future 
operation of the treaty compatible with the Vessel Day Scheme.
    That will be the great focus of our efforts over the next 
year or two as we seek to negotiate an extension of the treaty 
beyond 2013. As I said, because we have so many unanswered 
questions about the Vessel Day Scheme we will need more time to 
sort through that before I can give you a detailed answer as to 
which way we see this going.
    Mr. Faleomavaega. So the negotiations are ongoing now?
    Mr. Gibbons-Fly. The first session of the negotiations will 
take place in October. Well, the discussions. We don't yet have 
authority to negotiate an extension. We need to seek that with 
the Department of State under a formal process that we have.
    But we will begin the first round of discussions later this 
year in October, and that will take place in Port Vila, 
Vanuatu.
    Mr. Faleomavaega. What do you think will be the impact to 
the U.S. tuna fishing industry or the tuna industry if this 
treaty doesn't become reauthorized or is not given approval by 
the island countries?
    Mr. Gibbons-Fly. Well, as I say in my statement, we very 
much hope that that will not be the case, Mr. Chairman, and we 
don't have to look at that question.
    I am optimistic that the Pacific Island states, even though 
they are taking very--they are negotiators as well. They are 
very good negotiators, and they are taking I think what I 
understand to be a fairly tough negotiating position as we head 
into these negotiations.
    That is not unusual. We have faced that in the past, but at 
the end of the day I am optimistic that they value the treaty 
to the same extent that the United States values the treaty and 
that we will be able to reach an accommodation that will allow 
the treaty to continue to the benefit of all sides beyond 2013.
    As I said, there are no guarantees, and I hope I am not 
misreading that, but this treaty has worked very well for them. 
It has very broad support throughout the Pacific. The support 
for the treaty is not shared equally among all the parties. 
Some are greater supporters and some are not as strong of 
supporters these days, depending on a number of factors.
    As my written testimony states, there may be some parties 
to the treaty who decide that they will choose not to continue 
with the treaty, but that is their right. There is no reason 
for us to compel them to be part of an agreement that they are 
not interested in being a part of, and if that is the case then 
we would work to maintain the treaty with those parties that 
continue to be interested in doing that.
    Mr. Faleomavaega. To your knowledge, this is the only 
regional fishing treaty that is in place between the United 
States and these island countries? What I mean is do other 
countries have a similar arrangement on a regional basis like 
Korea or Japan?
    These countries have huge fishing fleets, and I am just 
curious if they also have regional fishing treaties with these 
island countries.
    Mr. Gibbons-Fly. No, they do not. They operate pretty much 
on the basis of individual bilateral agreements with the 
various countries.
    We would very much like to see the Pacific Island states 
reach a level of solidarity where they could insist among 
themselves that all these countries participate in regional 
agreements similar to the one that is negotiated with the 
United States.
    We think that is in the best interest of the Pacific Island 
states, and it results in agreements that are more transparent. 
We don't always know what the terms are of a bilateral 
agreement between a Pacific Island state and a distant water 
state and what the requirements are, whereas all the 
requirements of our treaty are publicly available and everybody 
knows what our VMS requirements are, what our observer 
requirements are, what are reporting requirements are. It is 
the most transparent agreement in the world, in addition to all 
these other things.
    We have encouraged the Pacific Island states to go along 
those lines, and I know there has been strong interest in doing 
so, but they have not been able to reach a state where, as I 
say, they have been able to agree among themselves that that is 
what they want to do.
    Mr. Faleomavaega. Do you sense that sometimes some of these 
island states, out of frustration, would rather deal with other 
countries than the United States?
    Mr. Gibbons-Fly. No. I have a strong sense that they 
welcome our participation, and in fact as I have said, they 
have valued the leadership that the U.S. fleet has provided in 
terms of getting some of these other countries up to the same 
standard.
    As I said, they have not gone as far as we would like to 
see in insisting that all of the other fleets operate at the 
same standard, but they continue to tell us that if it were not 
for the U.S. fleet they would have a much harder time. It would 
be difficult, if not impossible, to insist that some of these 
other fleets carry observers and carry VMS and those kinds of 
things.
    Our relationship is a very mature one. As with any mature 
one, there are things on which we agree and things on which we 
disagree. I think it is probably a lot easier for some of these 
countries to deal individually with another state and reach a 
very simple agreement than dealing not only with the United 
States, but having to balance their individual interests with 
the interests of the other 15 parties that are a party to this 
multilateral treaty.
    That is one of the things that makes this agreement so 
complex, but it is also one of the things that I think adds to 
its strength and makes it so valuable to both sides.
    Mr. Faleomavaega. Without objection, I am going to keep the 
record open. There may be some additional materials and 
information that I will be requesting of your office, Mr. 
Gibbons-Fly, to submit to be made part of our record.
    Mr. Gibbons-Fly. We would be happy to provide additional 
information that you request.
    Mr. Faleomavaega. I do want to thank you very much for 
coming this morning to testify before the subcommittee.
    I hope that in the coming weeks and months we will continue 
the dialogue, and hopefully we can resolve some of these issues 
as far as our fisheries program not just in the Pacific, but in 
other areas as well. But I do want to thank you for coming.
    Mr. Gibbons-Fly. Thank you, Mr. Chairman, and thank you for 
your support. I very much have appreciated the opportunity to 
be here today. As I said, we are happy to provide any 
additional information that you request.
    Mr. Faleomavaega. Thank you very much. The hearing is 
complete.
    [Whereupon, at 10:56 a.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               <greek-l>Minutes deg.

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Manzullo statement deg.
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Watson statement deg.
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
